                 

                 

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 




                        Results of Technical Network
                        Vulnerability Assessment:
                        EPA’s Region 6
                        Report No. 12-P-0659                    August 10, 2012




Scan this mobile code
to learn more about
the EPA OIG.
 Report Contributors:	                               Rudolph M. Brevard
                                                     Warren Brooks
                                                     Scott Sammons
                                                     Jeremy Sigel




Hotline 

To report fraud, waste, or abuse, contact us through one of the following methods:

e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
fax:       202-566-2599                                       Mailcode 2431T
online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                12-P-0659
                                                                                                         August 10, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Results of Technical Network Vulnerability
We sought to assess the             Assessment: EPA’s Region 6
security configurations of the
U.S. Environmental Protection        What We Found
Agency’s (EPA’s) Region 6
wireless network infrastructure.    Our vulnerability assessments of EPA’s Region 6 wireless network infrastructure
We sought to conduct network        found no security weaknesses. However, our vulnerability testing of networked
vulnerability testing of the        resources located at Region 6 facilities identified Internet Protocol addresses with
Region 6 Local Area Network         potentially 35 critical-risk, 217 high-risk, and 878 medium-risk vulnerabilities.
to identify resources that          Additionally, our server room assessments revealed a lack of adequate
contained commonly known            monitoring of environmental controls, the lack of a process to ensure only
high-risk and medium-risk           authorized personnel are approved for access to server rooms, and the existence
vulnerabilities. We also sought     of unsecured and unlogged media in the server rooms. If not resolved, these
to assess the physical controls     vulnerabilities could expose EPA’s assets to unauthorized access and potentially
and environmental controls          harm the Agency’s network.
around critical information
technology assets located in         Recommendations and Agency Corrective Actions
Region 6. We conducted this
audit as part of the annual         We recommend that the Senior Information Official within Region 6 provide the
review of EPA’s information         Office of Inspector General a status update for every critical-risk, high-risk, and
security program as required by     medium-risk vulnerability identified by the scanning tool; create plans of action
the Federal Information             and milestones in the Agency’s Automated Security Self-Evaluation and
Security Management Act.            Remediation Tracking system for all vulnerabilities according to Agency interim
                                    procedures; perform a technical vulnerability assessment test of assigned
Furthering EPA’s Goals and          network resources within 60 days to confirm completion of remediation activities;
Cross-Cutting Strategies            and remediate all identified physical and environmental control weaknesses
                                    identified in the server rooms.
 Strengthening EPA’s
  Workforce and Capabilities        Region 6 representatives acknowledged the existence of the vulnerabilities that
                                    we identified and stated they have begun developing corrective actions to
                                    address the risks related to these weaknesses.

                                    The detailed testing results have already been provided to Agency
                                    representatives. Due to the sensitive nature of the report’s technical findings, the
                                    technical details will not be made available to the public.




For further information, contact
our Office of Congressional and
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2012/
20120810-12-P-0659.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL




                                          August 10, 2012

MEMORANDUM

SUBJECT:	 Results of Technical Network Vulnerability Assessment:
          EPA’s Region 6
          Report No. 12-P-0659


FROM:	         Arthur A. Elkins, Jr.

TO:	           Lynda Carroll
               Senior Information Official
               Region 6


This is our quick reaction report on the subject audit conducted by the Office of Inspector
General (OIG) of the U.S. Environmental Protection Agency (EPA). Due to the sensitive nature
of the technical findings, we are issuing this report for urgent management remediation. The site
assessments were conducted in conjunction with our annual audit of EPA’s information security
program as required by the Federal Information Security Management Act. This report provides
the summary of our security assessments of networked resources located at EPA’s Region 6
office in Dallas, Texas, and laboratory in Houston, Texas.

Our tests disclosed that network resources at the Region 6 office and laboratory contained
potentially a combined 35 critical-risk, 217 high-risk, and 878 medium-risk vulnerabilities.
Our server room assessments revealed a lack of adequate monitoring of environmental controls,
the lack of a process to ensure only authorized personnel are approved for access to server
rooms, and the existence of unsecured and/or unlogged media in the server rooms. We provided
your office representatives with the technical results during our site visit to facilitate immediate
remediation actions.

We performed this audit work from February through August 2012 at EPA’s Region 6 office in
Dallas and laboratory in Houston. We performed this audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient and appropriate evidence to provide a reasonable basis for our findings
and conclusions based on the audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions.



12-P-0659                                                                                              1
We conducted testing to identify the existence of commonly known vulnerabilities using a
commercially available network vulnerability assessment tool recognized by the National
Institute of Standards and Technology (NIST). We interviewed EPA personnel responsible for
managing the network resources located in Region 6. We reviewed relevant EPA interim
procedures to obtain an understanding of the Agency’s Automated Security Self-Evaluation and
Remediation Tracking system used for recording identified weaknesses. We tested the Internet
Protocol addresses associated with network resources located in the Region 6 office and
laboratory. We used the risk ratings provided by the vulnerability software to determine the level
of harm a risk could pose to a networked resource due to the vulnerability and accepted the
results from the software tool as the level of risk to EPA’s network. Upon follow-up with your
office representatives, they acknowledged the existence of the vulnerabilities and stated that
some mitigation activities had already begun related to these risks.

We performed an inspection of EPA’s Region 6 server rooms with key information technology
(IT) personnel to assess the physical controls and environmental controls around IT assets. We
interviewed Agency IT staff to determine the extent to which IT equipment is protected from
physical, environmental, and human threats. We used NIST Special Publication 800-53,
Recommended Security Controls for Federal Information Systems and Organizations, as the
template for evaluating IT security controls around the server rooms. Appendix A includes a
summary of our findings at the server rooms assessed and our recommendations by site.

We also conducted testing of EPA’s Region 6 wireless infrastructure to identify any possible
configuration weaknesses using a commercially available wireless scanning tool. Specifically,
we performed tests to identify whether any unauthorized wireless devices existed on the region’s
network. We also performed tests to determine whether the wireless encryption protocols being
used on the region’s wireless local area network were sufficient to secure it. We found no
weaknesses during either of these tests.

Recommendations

We recommend that the Senior Information Official within Region 6:

       1.	 Provide the OIG a status update for all identified critical-risk, high-risk, and
           medium-risk vulnerability findings from the technical scanning tool within 30 days of
           this report.

       2.	 Create plans of action and milestones in the Agency’s Automated Security Self-
           Evaluation and Remediation Tracking system for all vulnerabilities according to
           Agency procedures within 30 days of this report.

       3.	 Perform a technical vulnerability assessment test of assigned network resources
           within 60 days to confirm completion of remediation activities.

       4.	 Establish written procedures for granting authorized access to Region 6 server rooms
           in Dallas and Houston.



12-P-0659                                                                                         2
       5.	 Sanitize and secure all used drives kept in the Houston server room in addition to
           logging their receipt, rotation, and/or disposal.

       6.	 Establish a process for continuous monitoring of Dallas and Houston server rooms’
           environmental conditions by personnel or real-time monitoring by existing IT
           equipment with environmental monitoring capabilities.


Action Required

Please provide written responses to this report within 30 calendar days. You should include a
corrective actions plan for agreed-upon actions, including milestone dates.

Due to the sensitive nature of the report’s technical findings, the technical details are not
included in this report and will not be made available to the public. The OIG plans to post on the
OIG’s public website the corrective action plans that you provide to us that do not contain
sensitive information. Therefore, we request that you provide the response to recommendation 1
in a separate document; we will not make that response available to the public if it contains
sensitive information.

Your responses should be provided as Adobe PDF files that comply with the accessibility
requirements of Section 508 of the Rehabilitation Act of 1973, as amended. Except for your
response to recommendation 1, which will not be posted if it contains sensitive information, your
responses should not contain data that you do not want to be released to the public; if those
responses contain such data, you should identify the data for redaction or removal.

If you or your staff have any questions regarding this report, please contact Patricia H. Hill,
Assistant Inspector General for Mission Systems, at (202) 566-0894 or hill.patricia@epa.gov; or
Rudolph M. Brevard, Product Line Director, Information Resources Management Assessments,
at (202) 566-0893 or brevard.rudy@epa.gov.




12-P-0659                                                                                        3
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                      RECOMMENDATIONS                                                               POTENTIAL MONETARY
                                                                                                                                     BENEFITS (in $000s)

    Rec.    Page                           Subject                            Status1        Action Official            Planned     Claimed    Agreed-To
    No.      No.                                                                                                       Completion   Amount      Amount
                                                                                                                          Date

     1        2     Provide the OIG a status update for all identified          U       Senior Information Official,
                    critical-risk, high-risk, and medium-risk vulnerability                      Region 6
                    findings from the technical scanning tool within
                    30 days of this report.

     2        2     Create plans of action and milestones in the                U       Senior Information Official,
                    Agency’s Automated Security Self-Evaluation and                              Region 6
                    Remediation Tracking system for all vulnerabilities
                    according to Agency procedures within 30 days of
                    this report.

     3        2     Perform a technical vulnerability assessment test of        U       Senior Information Official,
                    assigned network resources within 60 days to                                 Region 6
                    confirm completion of remediation activities.

     4        2     Establish written procedures for granting                   U       Senior Information Official,
                    authorized access to Region 6 server rooms in                                Region 6
                    Dallas and Houston.

     5        3     Sanitize and secure all used drives kept in the             U       Senior Information Official,
                    Houston server room in addition to logging their                             Region 6
                    receipt, rotation, and/or disposal.

     6        3     Establish a process for continuous monitoring of            U       Senior Information Official,
                    Dallas and Houston server rooms’ environmental                               Region 6
                    conditions by personnel or real-time monitoring by
                    existing IT equipment with environmental
                    monitoring capabilities.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0659                                                                                                                                                  4
                                                                                                 Appendix A


       Table of Server Room Assessment Findings and 

                  Recommendations by Site 

Key: X = Weakness found at location


         Issue Reviewed                            Recommendations                     Houston      Dallas

Lack of written procedures for           Establish written procedures for granting
authorizing access to the server         authorized access to Region 6 server rooms      X            X
rooms.                                   in Dallas and Houston.
Lack of environmental controls to
monitor server room temperature and      Establish a process for continuous              X            X
humidity and alert personnel of          monitoring of Dallas and Houston server
emergency.                               room’s environmental conditions by
                                         personnel or real-time monitoring by
Charged wet-piped fire suppression       existing IT equipment with environmental
system leaves uncovered server racks     monitoring capabilities.                        X
susceptible to water damage.

Un-sanitized data drives with EPA
information not logged and left                                                          X
                                         Sanitize and secure all used drives kept in
unsecured within server room.
                                         the Houston server room in addition to
No logging of rotation of backup         logging their receipt, rotation and/or
tapes or transportation/receipt at the   disposal.                                                    X
Addison offsite storage facility.




12-P-0659                                                                                                    5
                                                                                Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Regional Administrator, Region 6
Senior Information Official, Region 6
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Senior Agency Information Security Officer
Audit Follow-Up Coordinator, Region 6




12-P-0659                                                                                6
